U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 4, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ernest L. Francway, Jr. v. Robert Wilkie, Secretary of Veterans Affairs,
S.Ct. No. 19-604

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 7,
2019, and placed on the docket on November 8, 2019. The government's response is due on
December 9, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 8, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0604
FRANC WAY, ERNEST L., JR.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS

MEL BOSTWICK
ORRICK,HERRINGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15THSTREET,NW
WASHINGTON, DC 20005-1706
202-339-8483
MBOSTWICK@ORRICK.COM
ANGELA K. DRAKE
UNIVERSITY OF MISSOURI SCHOOL OF LAW
VETERANS CLINICS
225 HULSTON HALL
COLUMBIA, MO 65211
573-882-7630
DRAKEA@MISSOURI.EDU
MICHAEL E. JOFFRE
STERNE, KESSLER, GOLDSTEIN & FOX PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202-371-2600
MJOFFRE@STERNEKESSLER.COM

